  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 MEDICARE COULD SAVE MILLIONS BY
IMPLEMENTING A HOSPITAL TRANSFER
    PAYMENT POLICY FOR EARLY
   DISCHARGES TO HOSPICE CARE




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                         May 2013
                                                       A-01-12-00507
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

If Medicare Part A had implemented a hospital transfer payment policy for early discharges
from hospitals to hospice care in 2009 and 2010, it could have saved over $600 million.

WHY WE DID THIS REVIEW

Medicare beneficiaries’ discharges from acute-care hospitals (hospital) to hospice care increased
significantly from 161,661 discharges in calendar year (CY) 2007 to 269,117 discharges in
CY 2010, or approximately 66 percent. Medicare Part A payments to hospitals increased from
$1.5 billion for the services they provided to beneficiaries discharged to hospice care in CY 2007
to $2.7 billion in CY 2010, or 80 percent. Currently, Medicare has two “transfer payment
policies” that adjust payments for discharges from hospitals to other hospitals or postacute-care
facilities that are made sooner than a Medicare-established average length of stay (an early
discharge). When a beneficiary is discharged early from a hospital to hospice care, however,
Medicare does not have a transfer payment policy to adjust the payment to the hospital. During
our audit period, more than 30 percent of the discharges from hospitals to hospice care were
early and so would have been subject to a transfer payment policy if Medicare had had one.

Our objective was to determine how a hospital transfer payment policy for early discharges to
hospice care would financially affect Medicare Part A and hospitals.

BACKGROUND

Medicare pays full prospective payments (full payment), based in part on average lengths of stay,
to hospitals that discharge beneficiaries for hospice care. This payment was intended to provide
payment in full to hospitals for all inpatient services associated with a particular diagnosis. In
contrast and because of its transfer payment policies, Medicare pays hospitals a per diem rate for
early discharges when beneficiaries are transferred to another prospective payment system
hospital or to postacute-care settings, including skilled nursing facilities, inpatient rehabilitation
facilities, home health agencies, long-term care hospitals, and psychiatric hospitals. This is
based on the assumption that hospitals should not receive full payments for beneficiaries
discharged early and then admitted for additional care in other clinical settings. Consistent with
Medicare’s existing transfer payment policies, we define an early discharge as being more than 1
day earlier than the Medicare-established geometric mean length of stay for an applicable
diagnosis-related group.

WHAT WE FOUND

On the basis of our sample results, we estimated that Medicare could have saved $602,519,187
for CYs 2009 and 2010 by applying a hospital transfer payment policy for early discharges to
hospice care. Medicare payments based on a per diem rate rather than a full payment for the
sampled claims would have resulted in $379,844 in savings. Approximately 30 percent of all
hospital discharges to hospice care were early discharges that would have received per diem
payments rather than full payments under a hospital transfer payment policy. In addition, this


Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                i
transfer payment policy would not have caused a significant financial disadvantage for hospitals
or disproportionately affected any hospital.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) change its
regulations or pursue a legislative change, if necessary, to establish a hospital transfer payment
policy for early discharges to hospice care.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it would like to study our
recommendation further. CMS stated that adopting a transfer policy for hospice may “produce
lower than estimated savings by discouraging hospitals from making transfers to more
appropriate and cost effective care settings until a patient’s length of stay would not result in a
reduction of payment to hospitals.” Furthermore, CMS stated that it needs to explore whether it
has the authority “to expand the [postacute-care] transfer adjustment to hospices.”

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding CMS’s comments on the possibility that hospitals would not make transfers to
hospice to avoid a reduction in payment, an overwhelming majority of hospital officials stated in
response to our questionnaire that a reduction in hospital payments resulting from a hospice
transfer policy would not influence medical practice in a way that increases the health risks for
beneficiaries or creates an incentive for hospitals to extend hospital stays. In addition, the
possibility that hospitals would not make transfers could also exist under the current policies
regarding transfers from hospitals to other hospitals or postacute-care facilities. Accordingly, we
encourage CMS to pursue the adoption of this policy and determine whether it has the authority
to expand the existing transfer payment policies.




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                  ii
                                                    TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION.................................................................................................................... 1

      Why We Did This Review ................................................................................................ 1

      Objective............................................................................................................................ 1

      Background ....................................................................................................................... 1
          Medicare Program ..................................................................................................... 1
          Acute-Care Hospital Prospective Payment System................................................... 1
          Hospice Care ............................................................................................................. 1
          Hospitals Often Discharge Beneficiaries to Inpatient Hospice Care ........................ 2
          Transfer Payment Policies ......................................................................................... 2
          Common Diagnosis-Related Groups ......................................................................... 3

      How We Conducted This Review.................................................................................... 3

FINDINGS ................................................................................................................................ 4

      Per Diem Payments for Early Discharge to Hospice Care Could Have Saved
       on Average More Than $4,000 per Claim ................................................................... 4

      A Transfer Payment Policy for Early Discharges to Hospice
       Would Not Have a Significant Financial Effect on Hospitals ................................... 4

      Estimates of Savings Realized If a Change to Discharge Policies Had Been
       Implemented .................................................................................................................. 5

CONCLUSION ........................................................................................................................ 5

RECOMMENDATION ........................................................................................................... 6

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................... 6

OFFICE OF INSPECTOR GENERAL RESPONSE........................................................... 6

APPENDIXES:

      A: Destinations, Numbers, and Percentages of Early Discharges
         to Hospice Care: Calendar Years 2009 and 2010 ................................................... 7

      B: Top 10 Diagnostic-Related Drugs for Hospital Early Discharges to Hospice....... 8

      C: Audit Scope and Methodology .................................................................................. 9

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                                                             iii
     D: Sample Design and Methodology .............................................................................. 11

     E: Sample Results and Estimates ................................................................................... 12

     F: Centers for Medicare & Medicaid Services Comments .......................................... 13




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                                       iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare beneficiaries’ discharges from acute-care hospitals (hospital) to hospice care increased
significantly from 161,661 discharges in calendar year (CY) 2007 to 269,117 discharges in
CY 2010, or approximately 66 percent. Medicare Part A payments to hospitals increased from
$1.5 billion for the services they provided to beneficiaries discharged to hospice care in CY 2007
to $2.7 billion in CY 2010, or 80 percent. Currently, Medicare has two “transfer payment
policies” that adjust payments for discharges from hospitals to other hospitals or postacute-care
facilities that are made sooner than a Medicare-established average length of stay (an early
discharge). When a beneficiary is discharged early from a hospital to hospice care, however,
Medicare does not have a transfer payment policy to adjust the payment to the hospital. During
our audit period, more than 30 percent of the discharges from hospitals to hospice care were
early and so would have been subject to a transfer payment policy if Medicare had had one.

OBJECTIVE

Our objective was to determine how a hospital transfer payment policy for early discharges to
hospice care would financially affect Medicare Part A and hospitals.

BACKGROUND

Medicare Program

Medicare provides health insurance coverage to people aged 65 and over, people with
disabilities, and people with end-stage renal disease. Medicare Part A helps cover certain
inpatient services in hospitals, hospice care, skilled nursing facilities, and some home health care
services. The Centers for Medicare & Medicaid Services (CMS) administers Medicare.

Acute-Care Hospital Prospective Payment System

The Social Security Act, section 1886(d), established the prospective payment system (PPS) for
hospital services. Under the PPS, Medicare pays hospital costs for beneficiaries at
predetermined rates. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned (e.g., 871, Septicemia). The prospective payment was intended to
provide payment in full to hospitals for all inpatient services associated with a particular
diagnosis. (We will refer to this as the “full payment.”) Therefore, the earlier a beneficiary is
discharged from the hospital, the greater the chance that the beneficiary’s length of stay will be
below that average figure used in calculating the full payment and the hospital will benefit
financially.

Hospice Care

Hospice care provides terminally ill beneficiaries with palliative care rather than traditional
medical care and curative treatment. The goal of palliative care is to improve a beneficiary’s


Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                               1
quality of life through pain management and symptom relief. Hospice care, including nursing
care and therapies, may be provided to beneficiaries in inpatient hospitals, inpatient hospice
facilities, nursing facilities, or their own homes. Medicare pays hospice providers a prospective
per diem payment (per diem payment) for each day that a beneficiary is in hospice care based on
the level of care required. Medicare Part A reimbursement for hospice care increased from
approximately $10.3 billion in CY 2007 to $13 billion in CY 2010. According to the Hospice
Association of America, the significant increase in the use of hospice care is due most likely to
increased beneficiary, family, and physician awareness of the benefits of hospice care, together
with the rapid increase in hospice care facilities (Hospice Facts & Statistics, November 2010).

Hospitals Often Discharge Beneficiaries to Inpatient Hospice Care

Hospitals discharge beneficiaries to various settings for hospice care, such as inpatient hospitals,
inpatient hospice facilities, nursing homes, and beneficiaries’ homes; however, most of hospice
beneficiaries remain at inpatient facilities. For CYs 2009 and 2010, the majority, or
approximately 57 percent, of hospice care after early discharge from hospitals was provided in
inpatient facilities and billed by the hospice providers at a general inpatient per diem rate. (See
Appendix A for additional information about early discharges to hospice care.) In some cases,
beneficiaries stay at the discharging hospitals to receive hospice care, and the hospitals then
receive reimbursement for the hospice services they provide from the hospice providers.

Transfer Payment Policies

Medicare pays full payments to hospitals that discharge beneficiaries to their homes or to hospice
care. In contrast, for all DRGs, Medicare pays transferring hospitals using a per diem rate when
beneficiaries undergoing acute care are transferred to another hospital for continued treatment. 1
Using the same per diem rate calculation methodology, but only for certain DRGs, 2 Medicare
pays transferring hospitals the per diem rate when beneficiaries are discharged to postacute-care
settings, including skilled nursing facilities, inpatient rehabilitation facilities, home health
agencies, long-term care hospitals, and psychiatric hospitals. 3 For both acute-care and postacute-
care transfers, the sum of the per diem is not to exceed the full DRG payment that would have
been made had the beneficiary not been transferred. 4 This has the effect of reducing the payment
made for a discharge to another facility that occurs sooner than a Medicare-established average
length of stay for the applicable DRG. The policy is based on the premise that hospitals should
not receive full payments for Medicare beneficiaries discharged early and then admitted for
1
 The acute-care hospital-to-hospital transfer payment policy was established for discharges effective in fiscal year
(FY) 1984 (Fed. Reg. Vol. 48, No. 171, page 39759, Sept. 1, 1983). The current acute-care transfer policy is
codified at 42 CFR § 412.4(a).
2
 The hospital-to-postacute-care transfer payment policy, established for discharges occurring in FY 1999, was
applicable to 10 DRGs (section 1886(d)(5)(J)(iii) of the Social Security Act). The number of DRGs included in this
policy increased over several years and to 275 for discharges occurring in FY 2012 (Fed. Reg. Vol. 76, No. 160,
page 51711, Aug. 18, 2011).
3
    42 CFR § 412.4(c).
4
    42 CFR § 412.4(f).


Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                                2
additional care in other clinical settings. 5 The per diem transfer payment is calculated by
dividing the full payment by the geometric mean length of stay (GMLOS) 6 for an applicable
DRG. The total payment to the hospital is the per diem rate multiplied by a number equal to the
length of stay plus 1 day, not to exceed the full payment. 7 Consistent with Medicare’s current
transfer payment policies, we define an early discharge as being more than 1 day earlier than the
GMLOS for an applicable DRG.

Common Diagnosis-Related Groups

The hospital transfer payment policy for a discharge to a postacute-care setting applies to certain
DRGs. In CYs 2009 and 2010, the most common DRG for early discharges to hospice care was
DRG 871 (Septicemia), which accounted for more than 10 percent of all the billed DRGs. Nine
other DRGs, related mainly to respiratory, nervous, heart, or hemorrhage conditions, accounted
for 30 percent of the DRGs for early discharges to hospice care. (See Appendix B for a list of
common DRGs.) These 10 DRGs accounted for more than 40 percent of all the billed DRGs for
early discharges to hospice care for CYs 2009 and 2010.

HOW WE CONDUCTED THIS REVIEW

We identified hospital claims in which the discharge dates of the hospital claims matched the
start dates of hospice claims in CYs 2009 and 2010. We then identified hospital claims that had
lengths of stay at least 1 day fewer than the GMLOS for the billed DRGs. From a population of
158,623 nationwide hospital claims, we randomly selected a sample of 100 claims and
(1) reviewed medical records to confirm that beneficiaries were discharged to hospice care,
(2) calculated the per diem payment, and (3) calculated the hospitals’ costs on the basis of their
total charges and cost-to-charge ratio. 8

Our fieldwork consisted of contacting hospitals nationwide and visiting two hospitals in Rhode
Island and Massachusetts. We conducted our fieldwork from June through August 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix C contains the details of our scope and methodology, Appendix D contains our sample
design and methodology, and Appendix E contains our sample results and estimates.


5
    Fed. Reg. Vol. 48, No. 171, page 39759, September 1, 1983.
6
    The GMLOS is the national mean length of stay for a DRG as determined and published by CMS.
7
    Fed. Reg. Vol. 63, No. 147, page 40982, July 31, 1998, provides an example of a transfer payment.
8
 The cost-to-charge ratio is the factor applied to a hospital’s covered charges to determine estimated costs for
medically necessary services.

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                                3
                                                    FINDINGS

For CYs 2009 and 2010, on the basis of our sample results, we estimated that Medicare could
have saved $602,519,187 9 by applying a hospital transfer payment policy for early discharges to
hospice care for all DRGs. Medicare prospective payments based on a per diem rate rather than
a full payment for our sampled claims would have resulted in $379,844 in savings.
Approximately 30 percent of all hospital discharges to hospice care were early discharges that
would have received per diem payments rather than full payments under a hospital transfer
payment policy. In addition, this transfer payment policy would not have caused a significant
financial disadvantage for hospitals or disproportionately affected any hospital.

PER DIEM PAYMENTS FOR EARLY DISCHARGE TO HOSPICE CARE COULD
HAVE SAVED ON AVERAGE MORE THAN $4,000 PER CLAIM

Medicare prospective payments that were based on a per diem rate 10 (rather than a full payment)
and that covered all DRGs for our sampled claims would have resulted in $379,844 in savings in
CYs 2009 and 2010, or an average of $4,084 per claim. 11 Example 1 shows how this worked for
one of our sample claims.

             Example 1. A Per Diem Payment for an Early Discharge to Hospice Care

           A hospital admitted a beneficiary on July 13, 2010, and discharged him to hospice
           care on July 14. The hospital billed DRG 974, HIV with major related condition,
           with a GMLOS of 7.1 days. Medicare reimbursed the hospital a full payment of
           $19,739. Using a per diem rate, Medicare would have reimbursed the hospital
           $5,363, resulting in $14,376 in savings.

Approximately 30 percent of all hospital discharges to hospice care were early discharges that
would have received per diem payments rather than full payments under a hospital transfer
payment policy.

A TRANSFER PAYMENT POLICY FOR EARLY DISCHARGES TO HOSPICE
WOULD NOT HAVE A SIGNIFICANT FINANCIAL EFFECT ON HOSPITALS

A hospital transfer payment policy for early discharges to hospice care would not cause a
significant financial effect on hospitals. Specifically, for 73 percent of our sampled claims, per
diem payments would have exceeded hospital costs. Although this payment policy would not

9
  We estimate that Medicare could have saved $602,519,187 if all DRGs were included in a hospital-to-hospice
transfer payment policy. This would be similar to the acute-care hospital-to-hospital transfer payment policy.
However, if only certain DRGs were included in a hospital-to-hospice transfer payment policy (similar to the
hospital-to-postacute-care transfer payment policy), Medicare could have saved a lesser amount.
10
  We used the same per diem rate as the rate under current hospital transfer payment policies. Generally, hospitals
receive twice the per diem rate for the first day and the per diem rate for each additional day up to the full DRG
payment.
11
     Seven claims were not subject to a hospital transfer payment policy because they were managed care claims.

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                               4
fully cover 27 percent of the hospitals’ costs, we found that, on average, the per diem payments
would have still exceeded hospitals’ costs by $1,100 for all our sampled claims. In addition, this
transfer payment policy would not have disproportionately affected any hospital because no one
hospital in our sample accounted for more than four-tenths of 1 percent of all the early
discharges to hospice care in CYs 2009 and 2010.

                 Example 2. A Per Diem Payment That Covered Hospital Costs

        Using the same situation as in Example 1, the hospital would have received
        $5,363 if Medicare had used a per diem rate. For the same stay, we determined
        that the hospital’s costs would have been $2,181 by applying the hospital’s cost-
        to-charge ratio of 25.3 percent to its billed charges of $8,621. As a result, the
        reduced payment to the hospital would have exceeded the hospital’s costs by
        $3,182.

ESTIMATES OF SAVINGS REALIZED IF A CHANGE TO DISCHARGE POLICIES
HAD BEEN IMPLEMENTED

On the basis of our sample results, we estimated Medicare Part A would have saved
$602,519,187 during CYs 2009 and 2010 by implementing a hospital transfer payment policy for
early discharges to hospice care (Appendix E).

CONCLUSION

Trustees of the Part A Hospital Insurance trust fund have determined that it is not adequate to
meet the demands of the next 10 years and will be exhausted by 2024. 12 These projections
indicate an urgent need to address the exhaustion of the trust fund. The trustees state in their
report that the sooner significant reforms are enacted, the more flexible and gradual they could
be.

One such reform CMS could implement is a hospital transfer payment policy for early discharges
to hospice care, similar to the transfer payment policies it has for early discharges to hospitals
and to postacute-care facilities. These policies’ premise that hospitals should not receive full
payments for Medicare beneficiaries discharged early and then admitted for additional care in
other clinical settings also applies to beneficiaries discharged early to hospice care. The
implementation of a transfer payment policy for early discharges from hospitals to hospice care
would result in immediate and significant Medicare savings. Moreover, this reform would not
cause hospitals a significant financial disadvantage or disproportionately affect any hospital.

Lastly, hospitals and other inpatient facilities provided the majority of the hospice care after
early discharge, and 10 DRGs accounted for more than 40 percent of all the billed DRGs for
early discharges to hospice care for CYs 2009 and 2010. Therefore, CMS could establish a
transfer payment policy for early discharges to hospice care that covers all billed DRGs or for
only the most prevalently billed DRGs and still save.
12
 2012 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and Federal Supplemental
Medical Insurance Trust Funds, April 23, 2012.

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                        5
RECOMMENDATION

We recommend that CMS change its regulations or pursue a legislative change, if necessary, to
establish a hospital transfer payment policy for early discharges to hospice care.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it would like to study our
recommendation further. CMS stated that adopting a transfer policy for hospice may “produce
lower than estimated savings by discouraging hospitals from making transfers to more
appropriate and cost effective care settings until a patient’s length of stay would not result in a
reduction of payment to hospitals.” Furthermore, CMS stated that it needs to explore whether it
has the authority “to expand the [postacute-care] transfer adjustment to hospices.” CMS’s
comments are included in their entirety as Appendix F.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding CMS’s comments on the possibility that hospitals would not make transfers to
hospice to avoid a reduction in payment, an overwhelming majority of hospital officials stated in
response to our questionnaire that a reduction in hospital payments resulting from a hospice
transfer policy would not influence medical practice in a way that increases the health risks for
beneficiaries or creates an incentive for hospitals to extend hospital stays. In addition, the
possibility that hospitals would not make transfers could also exist under the current policies
regarding transfers from hospitals to other hospitals or postacute-care facilities. Accordingly, we
encourage CMS to pursue the adoption of this policy and determine whether it has the authority
to expand the existing transfer payment policies.




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                               6
           APPENDIX A: DESTINATIONS, NUMBERS, AND PERCENTAGES
                  OF EARLY DISCHARGES TO HOSPICE CARE:
                       CALENDAR YEARS 2009 AND 2010

                                                                                   Percentage
                                                                        No. of       of All
 Destination Code            Early Discharge Destination              Discharges   Discharges
      Q5006              Inpatient Hospice Facility                      47,865         30.2%
      Q5001              Patient’s Home/Residence                        46,544         29.3%
       Q5005             Inpatient Hospital                              41,916        26.4%
       Q5002             Nursing Long-Term Care Facility                  9,490         6.0%
       Q5004             Skilled Nursing Facility                         6,965         4.4%
                         All Other Facilities                             5,843         3.7%
                          TOTAL                                         158,623         100%




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                        7
                  APPENDIX B: TOP 10 DIAGNOSIS-RELATED GROUPS
                   FOR HOSPITAL EARLY DISCHARGES TO HOSPICE

Top 10 DRGs Billed for the 77,231 Hospital Early Discharges to Hospice Care in CY 2009
                                                                            Percentage
                                                                No. of         of All
                                                              Discharges    Discharges
 DRG               DRG Description                GMLOS to Hospice          to Hospice
  871      Septicemia                                           5.5          8,050   10.4%
  177      Respiratory Infection & Inflammations                7.2          4,021    5.2%
           Intracranial Hemorrhage or Cerebral
  064      Infarction With MCC                                  5.5          3,468    4.5%
           Intracranial Hemorrhage or Cerebral
  065      Infarction With CC                                   4.3          2,479    3.2%
  280      Acute Myocardial Infarction                          5.8          2,424    3.1%
  291      Heart Failure & Shocks                               5.0          2,291    3.0%
  682      Renal Failure                                        5.2          2,201    2.8%
  189      Pulmonary Edema & Respiratory Failure                4.8          1,891    2.4%
  193      Simple Pneumonia & Pleurisy                          5.4          1,877    2.4%
  180      Respiratory Neoplasms                                6.0          1,767    2.3%
            TOTAL                                                           30,469   39.5%*

Top 10 DRGs Billed for the 81,392 Hospital Early Discharges to Hospice Care in CY 2010
                                                                            Percentage
                                                                No. of         of All
                                                              Discharges    Discharges
 DRG               DRG Description                GMLOS to Hospice          to Hospice
  871      Septicemia                                           5.4          9,709   11.9%
           Intracranial Hemorrhage or Cerebral
  064      Infarction With MCC                                  5.3          3,925    4.8%
  177      Respiratory Infection & Inflammations                7.1          3,836    4.7%
  291      Heart Failure & Shocks                               5.0          2,575    3.2%
           Intracranial Hemorrhage or Cerebral
  065      Infarction With CC                                   4.1          2,467    3.0%
  280      Acute Myocardial Infarction                          5.4          2,396    2.9%
  682      Renal Failure                                        5.1          2,357    2.9%
  193      Simple Pneumonia & Pleurisy                          5.3          2,253    2.8%
  189      Pulmonary Edema & Respiratory Failure                4.7          2,104    2.6%
  180      Respiratory Neoplasms                                5.9          1,815    2.2%
            TOTAL                                                           33,437   41.1%*
MCC = major complication or comorbidity, CC = complication or comorbidity
* Amounts do not total because of rounding.

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                           8
                   APPENDIX C: AUDIT SCOPE AND METHODOLOGY

SCOPE

We identified hospital claims in which the discharge dates of the hospital claims matched the
start dates of hospice claims in CYs 2009 and 2010. We then identified hospital claims that had
lengths of stay at least 1 day fewer than the GMLOS for the billed DRG. The population
consisted of 158,623 nationwide hospital claims with Medicare payments totaling more than
$1.65 billion.

We limited our review at hospitals to the controls related to discharging beneficiaries to hospice
care.

Our fieldwork consisted of contacting hospitals nationwide and visiting one hospital in Rhode
Island and one in Massachusetts. We conducted our fieldwork from June through August 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted hospital claim data for claims in which the discharge dates of the hospital
        claims matched the start dates of hospice claims from the CMS National Claims History
        file for CYs 2009 and 2010;

    •   analyzed the beneficiaries’ hospital lengths of stay and discharge status billed on the
        claims to determine whether their lengths of stay were at least 1 day fewer than the
        applicable DRG’s GMLOS;

    •   identified 158,623 hospital claims that had discharge dates in CYs 2009 and 2010 and
        that had beneficiary lengths of stay shorter than the applicable DRGs’ GMLOS;

    •   selected a simple random sample of 100 hospital claims from the 158,623 claims
        (Appendix D);

    •   reviewed data from CMS’s Common Working File for the 100 hospital claims and the
        corresponding hospice claims to (1) validate claim information extracted from the
        National Claims History file, (2) determine whether any of the selected claims had been
        canceled or adjusted, and (3) identify the services billed;

    •   reviewed medical records, such as physician notes and discharge summaries, to confirm
        the discharges to hospice care;

    •   sent questionnaire to 93 hospitals to determine what financial impact a hospital transfer
        payment policy for early discharges to hospice care would have on hospitals;

Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                 9
    •   reviewed questionnaire responses and, if necessary, followed up with hospital officials
        for clarification or to request additional information;

    •   calculated the hospitals’ costs for the billed claims on the basis of their total charges and
        cost-to-charge ratios;

    •   repriced the hospitals’ claims on the basis of a per diem rate to determine the reduced
        payment amounts;

    •   calculated the potential Medicare savings by subtracting each reduced payment from the
        full payment;

    •   estimated the total value of potential Medicare savings on the basis of our sample results
        (Appendix E); and

    •   discussed the results of our review with CMS officials.

We assessed the reliability of the hospital and hospice claims by tracing a random sample of data
to source documents. We determined that the data were sufficiently reliable for the purpose of
this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                                10
                 APPENDIX D: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of nationwide Medicare acute-care hospital claims for CYs 2005
through 2011 with discharge dates that matched the start dates of hospice claims for the same
beneficiaries.

SAMPLING FRAME

We identified acute-care hospital claims with discharge dates that matched the start dates of
hospice claims for the same beneficiaries.

We then identified those acute-care hospital claims on which a cost savings could have been
realized if a transfer payment policy had been established in CYs 2009 and 2010. The resulting
sampling frame consisted of 158,623 acute-care hospital claims with a total paid amount of
$1,651,953,817.

SAMPLE UNIT

The sample unit was an acute-care hospital claim.

SAMPLE DESIGN

Our sample design was a simple random sample.

SAMPLE SIZE

We selected a sample of 100 acute-care hospital claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items for review.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the dollar value of potential cost savings
for payments made to acute-care hospitals.




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                             11
                    APPENDIX E: SAMPLE RESULTS AND ESTIMATES

                                             Sample Results

                                                                      Claims That
                                                                        Would
                                                                      Qualify for   Value of
        Frame                            Sample       Value of         Transfer      Cost
         Size      Value of Frame         Size        Sample           Payment      Savings

       158,623      $1,651,953,817         100      $1,073,323            93        $379,844



                                     Estimated Cost Savings
                     (Limits Calculated for a 90-Percent Confidence Interval)


                              Point estimate                  $602,519,187
                               Lower limit                    $511,204,398
                               Upper limit                    $693,833,975




Medicare Could Save Millions by Implementing a Hospital Transfer
Payment Policy for Early Discharges to Hospice Care (A-01-12-00507)                            12
(:.._t
 ,.~""c~"




 S.~
              APPENDIX F: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

               DEPARTMENT OF HEALTH & HUMAN SERVICES                                    cemem fo< MOO<a" &


                                                                                        Administrator
                                                                                                               MOOica~   SeN;"'



                                                                                        Washington, DC 20201




            DATE:            APR - 1 2013
            TO:             Daniel R. Levinson


            FROM: 



            SUBJECT:        Office oflnspector General (OIG) Draft Report: Medicare Could Save Millions
                            by Implementing a Hospital Transfer Payment Policy for Early Discharges to
                            Hospice Care (A-01-12-00507)


            The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
            comment on this OIG Draft Report. CMS appreciates the OIG's continuing effort to examine
            areas for potential program savings. The Medicare Hospital inpatient prospective payment
            system determines appropriate payment amounts based on several factors . The Medicare
            severity diagnosis-related group (MS-DRG) system was designed to assign relative values of
            hospital care associated with treating beneficiaries with the same diagnosis. As part of this
            process, CMS calculates the average lengths of stay associated with each MS-DRG. Currently,
            CMS implements two types of adjustments for cases where the beneficiary is transferred to
            another care setting before the geometric mean length of stay (GMLOS). The acute-care
            (hospital-to-hospital) transfer adjustment reduces standard payments if a beneficiary is
            transferred to another acute care hospital before the GMLOS length of stay of a MS-DRG is
            reached. The post-acute care (PAC) transfer adjustment applies to certain MS-DRGs if the
            beneficiary is discharged and transferred to certain defined PAC settings. Hospice care facilities
            are not among the types of providers currently subject to the PAC transfer policy.

            The OIG report presents findings from a review of hospital claims from calendar years (CYs)
            2009 and 2010. After matching hospital discharge dates with hospice start dates, OIG identified
            claims where the patient was discharged from the hospital at least 1 day before the GMLOS of a
            MS-DRG. From 158,623 nationwide hospital claims from CYs 2009 and 2010, they selected a
            random sample of 100 cases to confirm the discharge status, estimate potential savings, and
            compare how any payment reductions would compare to the hospitals' actual costs of providing
            care.

            The OIG reports estimated that CMS would save about $600 million during CYs 2009 and 2010
            if it implemented a hospice care transfer adjustment similar to our acute-care transfer policy.
            OIG estimated that approximately 30 percent of all hospital discharges to hospice care were
            discharges made before the GMLOS ofa MS-DRG, and found that a reduced per-diem payment
            methodology would still exceed actual hospital costs in 73 percent of cases. The OIG also found
            that 10 MS-DRGs accounted for more than 40 percent of early discharges to hospice. They




            Medicare Could Save Millions by Implementing a H ospital Transfe r                                   13
            Payment Policyf or Early Discharges to Hospice Care (A-01-12-00507)
Page 2 - Daniel R. Levinson

suggest that CMS could propose an adjustment that targets only the most prevalent MS-DRGs,
and still see significant savings.

OIG Recommendation

The OIG recommends that CMS change its regulations or pursue a legislative change, if
necessary, to establish a hospital transfer payment policy for early discharges to hospice care.

CMS Response

The CMS would like to study OIG's recommendation further. We acknowledge that there is a
tangible financial incentive for hospitals to initially admit hospice-bound beneficiaries as
hospital inpatients. OIG estimates that the program could have saved over $600 million during
CYs 2009 and 2010 by implementing a hospice transfer adjustment for all DRGs. However, it is
possible that adopting a transfer policy to the hospice setting would produce lower than
estimated savings by discouraging hospitals from making transfers to more appropriate and cost
effective care settings until a patient's length of stay would not result in a reduction of payment
to hospitals. We would require further analysis to determine what savings could be achieved by
expanding the PAC transfer adjustment to include hospice care, and the appropriateness of
making such an adjustment ifCMS were to adopt this policy. We also need to explore whether
we have the authority under the current statute to expand the PAC transfer adjustment to
hospices as OIG suggests.

The CMS thanks OIG for the work done on this issue and looks forward to working with OIG in
the future.




Medicare Could Save Millions by Implementing a H ospital Transfer                                  14
Payment Policyfor Early D ischarges to Hospice Care (A-01-12-00507)
